HHS/OIG, Audit - "Review of Medicare Payments for Services Provided
to Incarcerated Beneficiaries," (A-07-02-03008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries,"
(A-07-02-03008)
October 9, 2002
Complete Text of Report is available in PDF format
(420 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This review was made to determine whether Medicare payments
were made for services to incarcerated beneficiaries.  Missouri was one
of ten states selected for review.  During our review in Missouri we discovered
that there were two major groups of incarcerated individuals that potentially
could have had improper Medicare claims paid on their behalf.  The first
group was comprised of state prisoners in state correctional facilities under
control of the Department of Corrections (DOC).  The other group was individuals
who were residing in state mental health facilities under the control of the
Department of Mental Health (DMH).  This group of individuals is comprised
of forensic patients who had been found either "Not Guilty By Reason of
Insanity" or "Incompetent to Stand Trial" by the court system.
For the first major group of incarcerated individuals, Missouri
Statute, sections 217.829 requires these individuals to reimburse the DOC for
the cost of their care while they were incarcerated.  This law, if followed,
would allow the Missouri state prisons to bill Medicare.  However, during
our review we learned that Missouri DOC has a contract with Correctional Medical
Services.  Under this contract, Correctional Medical Services is required
to pay for all care provided to state prisoners.  Therefore, the state
prisons should not bill any other insurance company, including Medicare, for
medical services provided to state prisoners.
For the second major group of incarcerated individuals, forensic
patients under the control of the Missouri DMH, Missouri Statute, section 552.080
requires these individuals to reimburse the DMH for the cost of care.
All 100 of Missouri's sample claims were for this group of individuals.
We found that DMH follows all of the various laws and regulations regarding
the diligent pursuit of payment and therefore all of the payments made by Medicare
for these claims were allowable.
We have been informed that the Centers for Medicare and Medicaid
Services (CMS) plans to establish an edit in the common working file that will
deny claims for incarcerated beneficiaries.  Claims meeting the conditions
of payment will not be subject to this edit if the supplier or provider submitting
the claim certifies, by using a modifier or condition code on the claim, that
he or she has been instructed by the state or local government component that
the conditions for Medicare payment have been met.  We recommended that
CMS:  (1) make a concerted effort to educate suppliers and providers on
the meaning of the modifier or condition code and circumstances relating to
their proper use, (2) monitor claims with the modifier or condition code to
assure that federal guidelines are met, and (3) monitor claims to ensure that
only commitment codes that meet Medicare criteria are paid and that uniform
collection procedures are enforced.  The CMS concurred with our findings
and recommendations.